<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-226]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-226

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 14, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
           
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                 U.S. GOVERNMENT PUBLISHING OFFICE        

40-834 PDF                WASHINGTON : 2020        
        
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
              
              
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 14, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    12

                              LEGISLATION

H.R. 5430, the United States-Mexico-Canada Agreement 
  Implementation Act.............................................    13

                          ADDITIONAL MATERIAL

The Implementation Act for the Agreement Between the United 
  States of America, the United Mexican States, and Canada 
  (USMCA), Statement of Administrative Action....................   252
From the U.S. Senate Committee on Finance, U.S.-Mexico-Canada 
  Agreement (USMCA), Benefits....................................   298
From the U.S. Senate Committee on Finance, U.S.-Mexico-Canada 
  Agreement (USMCA), Trade Figures...............................   301
U.S.-Mexico-Canada Trade Agreement, Highlights, www.usitc.gov....   302



 
                            BUSINESS MEETING

                              ----------                              


                       TUESDAY, JANUARY 14, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Cramer, Braun, 
Rounds, Sullivan, Boozman, Wicker, Shelby, Ernst, Cardin, 
Whitehouse, Merkley, Gillibrand, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Before we begin the markup, I want to take a moment to 
congratulate and thank Senators on our Committee who worked to 
pass two important pieces of legislation through the Senate 
this past week.
    On Thursday, the Senate passed the Save Our Seas 2.0 Act, 
and Senator Sullivan and Senator Whitehouse partnered together 
to shepherd this bill through the Senate. Both of them were on 
the floor of the Senate last evening talking about all the 
benefits of this legislation that has passed our Committee 
unanimously, as well as the Senate unanimously. The legislation 
will help reduce the amount of plastic and waste floating in 
our oceans and will spur innovative solutions to prevent more 
plastic pollution.
    Also on Thursday, the Senate passed America's Conservation 
Enhancement Act, or the ACE Act. Ranking Member Carper and I 
introduced the ACE Act; Senators Cramer and Cardin and Capito 
and Van Hollen and Inhofe and Boozman all joined as cosponsors.
    The ACE Act helps conserve wildlife and wildlife habitat. 
The legislation addresses the threats of emerging wildlife 
diseases, like chronic wasting disease. It protects livestock 
from predators, and it combats invasive species.
    The ACE Act has received broad support from States, from 
environmental groups, and from stakeholders. Now, the Senate 
has passed the legislation unanimously. The House of 
Representatives should follow our lead and pass this historic 
bipartisan conservation legislation into law.
    In today's markup, we will consider one bill, H.R. 5430, 
the United States-Mexico-Canada Agreement Implementation Act. 
Senator Carper and I have agreed that we will begin voting at 
10:15. At that time, I will call up the legislation for a vote. 
We won't debate the bill while we are voting. Instead, we will 
debate the legislation before we begin the vote, and I will 
also be happy to recognize any member who still wishes to speak 
after the voting concludes.
    President Trump promised a strong, fair, and updated trade 
agreement with our neighbors, Canada and Mexico. President 
Trump has delivered on his promise. The United States-Mexico-
Canada Agreement, also known as USMCA, was signed by the 
leadership of all three countries more than a year ago. Mexico 
gave its final approval of the agreement last June. Canada is 
waiting for us here in Congress to approve the agreement before 
taking it up. It is critical that Congress approves this trade 
deal to continue to fuel America's strong, healthy, and growing 
economy.
    H.R. 5430 will implement the United States-Mexico-Canada 
agreement. At the end of last year, the House of 
Representatives overwhelmingly voted to approve the 
legislation. The bipartisan vote tally was 385 to 41.
    It has a good reason for broad support. USMCA builds on the 
certainty and progress achieved through recent trade agreements 
with Japan and with China. It is going to expand market access 
for a host of U.S. products, and it will sharpen U.S. 
exporters' competitive edge.
    Trade is certainly very important to my home State of 
Wyoming. We trade our agriculture and our energy products, 
including our number one cash crop, which is beef. We do this 
all around the world.
    Above all, USMCA will benefit American workers. The 
agreement will protect and create millions of jobs here in the 
United States. American manufacturers overwhelmingly support 
USMCA. It is imperfect, but it is still a win for American 
workers and families.
    It is also a win for the environment. The United States 
already has strong environmental protections. The phrase ``made 
in America'' is good for the environment. The agreement does 
not change those protections or give Washington new authorities 
to regulate. Instead, the agreement recognizes that our 
partners should have strong environmental records like we do.
    Our Committee is one of several Senate committees that have 
jurisdiction over the legislation. Under the fast track rules, 
the Committee cannot amend the bill. We will vote today only on 
whether to favorably report the bill.
    I urge my colleagues to support passage of the United 
States-Mexico-Canada Agreement so we can continue to support 
our strong, healthy, and growing economy.
    I will now turn to our Ranking Member for his opening 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    A lot of people from my State, and probably your States as 
well, think we don't work together on anything, and I think the 
Chairman has mentioned two bills that passed literally this 
week out of our Committee, bipartisan bills, and a trade 
agreement before us that has been worked on by Democrats and 
Republicans of Congress and the Administration.
    Thank you, Mr. Chairman, for pulling us together today. 
Those of us on the Environment and Public Works Committee are 
considering the new North American Free Trade Agreement Treaty, 
as we know. If we view the treaty solely as a vehicle to 
address climate change, then we didn't get nearly enough in the 
agreement, in fact, far from it.
    It is no surprise that I and the Democrats and a growing 
number of Republicans, too, think that we need to act with a 
sense of urgency to address climate change. It has just been 
reported that our planet experienced its second hottest year on 
record in 2019. Last decade was the hottest decade in the 
history of our planet. Australia today is literally on fire, 
the Arctic is melting, and our seas are rising.
    If we are only measuring the new NAFTA by what it does to 
address climate change, well, it doesn't work, plain and 
simple. The new NAFTA fails to recommit the U.S. to the Paris 
Accords. It continues to give special treatment to fossil fuel 
interests. It fails to ratify the Kigali amendment to the 
Montreal protocol, which could bring the global community 
together to reduce the use of HFCs and avoid up to a half-
degree Celsius in global warming by the end of this century.
    Like so many of the Trump administration's proposals, the 
new NAFTA fails to even mention the words ``climate change.'' 
With these major deficiencies on the climate front, the new 
NAFTA Environment Protection chapter cannot be considered a 
template for future trade negotiations.
    Having said all that, though, if we are evaluating the new 
NAFTA as a trade agreement, which it is, and we consider the 
new environmental enforcement tools that Democrats fought hard 
to include, this new NAFTA can work. These new provisions will 
ensure the rules of this agreement can actually be enforced. 
That cannot be said of previous trade agreements that the 
Senate has ratified.
    Thanks to Democrats mostly, it is no longer the case that 
if one NAFTA country fails to ratify the environmental 
agreement, it can be used to prevent the others from honoring 
their obligation. Moreover, environmental violations will now 
be treated as trade violations, so when the United States does 
bring cases under the new NAFTA's Environmental Obligations, 
those cases will be easier to win going forward.
    The new NAFTA adds stronger language to ensure that the 
obligations of all three countries under multilateral 
environment agreements, including the Kigali amendment to the 
Montreal Protocol, can be fully enforced. This agreement also 
includes significant new wins for coastal States, including 
binding provisions around overfishing, around marine debris, 
and conservation of marine species.
    In addition to its $88 million for environmental monitoring 
cooperation enforcement, the new NAFTA creates an enforcement 
mechanism that gives environmental stakeholders an expanded 
role in enforcement matters. This will ensure that 
environmental violations can be investigated and remedied in a 
substantive and timely manner.
    Again, the new NAFTA will not solve the climate crisis or 
remedy this Administration's most egregious environmental 
rollbacks. If it was solely an environmental agreement, I could 
not vote for it, but the new NAFTA does make significant 
improvements on past trade agreements, including the original 
NAFTA.
    The new NAFTA adds important tools and resources that were 
negotiated mostly by Democrats to strengthen the agreement, 
hold the Administration accountable to enforce NAFTA countries' 
environmental obligations, and help ensure that those who break 
the rules are actually held accountable.
    And with that, Mr. Chairman, I am going to be voting yes on 
new NAFTA today, and I want to urge my colleagues to join me in 
doing so.
    If I could just take another 60 seconds. I think it was 
1999, I was chairman of the National Governors Association. We 
were all gathered in Washington, DC. We spent a big part of the 
morning with Bill Clinton, Al Gore, and their Cabinet.
    One of the issues that came up during our discussion with 
Bill Clinton, President Bill Clinton, was NAFTA, which was just 
being negotiated at that time. I asked him to explain why he 
thought that a couple of us--Mel Carnahan and I were about to 
run for the Senate--why we should support his efforts.
    What he did is he said you know, at the end of World War 
II, the U.S. was the 800 pound gorilla in the room; we were on 
top of the world. The rest of the world, their industrial base 
was mostly in ruins. We gave them the ability to sell their 
stuff to us without much impediment, and they put up barriers 
to keep our stuff out.
    And he said, that was fine, that was right, that was 
appropriate. Communism was sweeping through Europe, and we 
wanted to stop it in its tracks. He said, a lot has changed 
since then, and he said the reason why we do free trade 
agreements is because we want not to allow others to sell their 
stuff to us; they already do that. We want to make sure that we 
can sell in their markets, and so that is what this is all 
about.
    He never mentioned the environment. Never talked about 
anything to do with the environment, and from that day until 
this, we have heard people complain, justifiably so, about the 
lack of, one, tough environmental provisions that we and Mexico 
and Canada need to abide by, the ability to enforce those 
environmental protections, and the money to pay for those 
enforcements.
    Is this perfect in terms of its environmental standards and 
all? No, it is not perfect, but it is a whole lot better than 
what we talked about all those years ago with Bill Clinton, and 
we can do better from this going forward. I would urge a yes 
vote on this. Thank you.
    Senator Cardin. Mr. Chairman.
    Senator Barrasso. Senator Cardin.
    Senator Cardin. I support the agreement. I will speak after 
the vote.
    But I ask consent that Senator Whitehouse be able to speak 
now. He is opposed to the agreement. I think we should at least 
hear one person who is opposed to the agreement before the 
vote.
    Senator Barrasso. Senator Whitehouse, then you can expand 
on it afterwards as well.
    Senator Whitehouse. I have to go rank up in budget, so I 
appreciate everybody's courtesy. Thank you.
    I think I was the lone Democratic no vote in the Finance 
Committee on this bill. There is no doubt in my mind that this 
bill easily wins the record as most improved on environmental 
matters. But it wins the most improved award off a baseline of 
terrible, horrible, and no good, which has been the history of 
these trade agreements under Democratic and Republican 
Administrations alike.
    We are now at a point where I don't believe improvement is 
the measure. You are either reaching a measure that will 
protect us, or you are not, and if you are not, then I can't 
vote for it, and I view this as one that very clearly does not.
    As we look at getting through 410 parts per million of 
carbon dioxide in the atmosphere, as we look at the appalling 
warming of our oceans and the acidification of our seas, I am 
reminded of times I spent running rivers. If you are running 
rivers, and they are dangerous rivers, and they have got 
serious rapids on them, the first thing you do is you check the 
map to see where the rapids are, so that you know that they are 
up ahead.
    Well, we got warned about this. The scientists told us, 
here is what is going to happen. This is on the map. We paid no 
attention.
    Then if you go down the river, you get to the point where 
you can hear the rapids downriver. They are roaring; the falls 
are roaring ahead of you. That is a really good signal to 
paddle to shore until you know what the hell you are getting 
into.
    We can hear the roaring right now. We hear it in the flames 
of Australia, we hear it in the gushing of Greenland's glaciers 
into the sea, we see it in all of our home States, every single 
one of us has a home State university that teaches this stuff, 
every single one of us.
    But then there comes a point on the river where there is a 
point of no return. If you don't get off the river, you are 
going down the falls. At that moment, if you want to get safely 
to shore, you have got to paddle for your lives.
    That is where I think we are in climate right now. 
Colleagues can disagree with me. That is where I think we are 
on climate right now. If we don't take action soon, we are 
doomed to go down these cataracts.
    I think it is really vitally important that we take 
stronger action, and this is a big missed opportunity, 
notwithstanding it easily winning the most improved award for a 
trade negotiation.
    On that front, I do really want to trust my appreciation to 
Senator Cardin and Senator Carper for having leaned in to try 
to make so many of those improvements.
    So thank you very much for everybody's courtesy.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Now that enough members have arrived, I would like to move 
to vote on the item on today's agenda, H.R. 5430, United 
States-Mexico-Canada Agreement Implementation Act. I would like 
to call up H.R. 5430 and move to approve and report H.R. 5430 
favorable to the Senate.
    Is there a second?
    Senator Cardin. Second.
    Senator Barrasso. The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Mr. Boozman.
    Senator Boozman. Yes.
    The Clerk. Mr. Braun.
    Senator Braun. Yes.
    The Clerk. Ms. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Cardin. Aye.
    The Clerk. Mr. Carper.
    Senator Carper. Aye.
    The Clerk. Mr. Cramer.
    Senator Cramer. Aye.
    The Clerk. Ms. Duckworth.
    Senator Carper. Aye by proxy.
    The Clerk. Ms. Ernst.
    Senator Ernst. Yes.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Mr. Inhofe.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Markey.
    Senator Carper. No by proxy.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Shelby. Aye.
    The Clerk. Mr. Sullivan.
    Senator Sullivan. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. No.
    The Clerk. Mr. Wicker.
    Senator Wicker. Aye.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 16, the nays are 4.
    Senator Barrasso. The yeas are 16, the nays are 4. We have 
approved H.R. 5430, which will be reported favorably to the 
Senate.
    The voting part of the business is finished. I am going to 
be happy to recognize any other members who wish to make a 
statement on the legislation we just approved.
    I think Senator Ernst has the first right of refusal.
    Senator Ernst. Thank you, Mr. Chairman.
    The United States-Mexico-Canada Agreement, or as we call 
it, the USMCA, is a huge deal for my constituents back home in 
Iowa. Just this last weekend, I was in my hometown of Red Oak 
in Montgomery County, and I hosted a roundtable discussion with 
some of our farmers. Of course, the No. 1 topic was USMCA.
    That was the case last year on my 99 county tour. Iowans 
have been waiting a long time on this trade deal to be 
ratified. Our farmers, manufacturers, and small business owners 
need certainty and predictability, and getting this deal done 
with our top two trading partners gives them exactly that.
    We waited for over a year for the House Democrats to move 
on the USMCA, and I am happy to be a part of this process today 
in getting this bill to the Senate floor as quickly as 
possible.
    My home State of Iowa exports more to Canada and Mexico 
than we do to our next 27 trade partners combined. The USMCA 
will allow those numbers to grow exponentially by creating new 
export opportunities and over 175,000 jobs across the country. 
I believe that having the USMCA will not only be a win for my 
State, but also for the hard working Americans from all over 
the United States.
    Ratifying this agreement will be a shot of positive energy 
into businesses, homes, and lives across rural America.
    Mr. Chairman, as the daughter of a farmer, and as a proud 
Iowan, it is a privilege to vote in support of passing USMCA 
out of committee today, and I would be happy to support passage 
of the USMCA on the Senate floor.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I appreciate the 
opportunity to move this along.
    Trade is critically important to our economy. I think we 
all understand that trade done in the right way will improve 
the living standards for Americans and create jobs, as it has.
    As a Senator from Maryland, along with Senator Van Hollen, 
we are very much aware of the importance of the Port of 
Baltimore to our local economy. It depends upon open trade, and 
this trade agreement will help the Port of Baltimore, will help 
people in Maryland, and people around our Nation.
    There are many reasons that we should be supportive of this 
agreement, as it was originally presented from the point of 
view of the provisions that were included in it. There were 
some really good provisions.
    From my State of Maryland, the poultry industry will get a 
major plus as a result of this agreement. I want to thank 
Senator Carper, as part of the Delmarva team on poultry, for 
opening up markets, particularly in Mexico and Canada, that 
will be important for the poultry industry in our region.
    As the Ranking Democrat on the Small Business and 
Entrepreneurship Committee, there are many provisions here that 
are going to help small businesses. One, the de minimis rule, 
helps deal with expediting process at our borders for small 
companies. That is good for business and for small business; it 
is good for our economy.
    I particularly want to thank the USTR, Bob Lighthizer, for 
what he was able to get done in regard to good governance. 
During the debate on the trade promotional authority, I fought 
very hard as a principal negotiating objective to include good 
governance.
    For the first time, for the very first time in a trade 
agreement, we have strong provisions in regard to good 
governance in the core provisions of the USMCA. That includes 
anti-corruption provisions; it includes regulatory reform so 
that we can actually have input into the regulatory process in 
Mexico and Canada. It includes transparency; it represents U.S. 
values that are now embedded in our agreement with Mexico and 
Canada, and it is a template for future agreements with any 
trading partners.
    That is where we were when we started the process, but it 
was not good enough. I want to really thank Senator Carper for 
his extraordinary leadership on the environmental section.
    I want to thank my Democratic colleagues for what they were 
able to get done in the labor sections; I think that is all 
critically important.
    For the first time, we have enforcement of labor standards 
in this agreement that are effective. We can challenge the 
labor actions in Mexico or Canada, and there is enforcement. 
That is why it earned the support of the AFL-CIO.
    On the environmental provisions, which are particularly 
important to this Committee that has primary jurisdiction over 
the environmental provisions, again, I want to congratulate 
Senator Carper for insisting that we include a strong 
environmental section in the core agreement.
    NAFTA had environment. The problem was, it was a sidebar 
agreement and didn't have enforcement. You had a way of raising 
it, but once you raised it, you couldn't take it any further.
    Well, that is corrected in the USMCA. We now have a 
provision whereby the USTR can bring enforcement actions 
against Mexico or Canada in regard to failure to live up to the 
enforcement agreements, environmental agreements. We have 
upgraded the commitments in the environment, including fishery 
subsidies, marine litter, and conservation of marine species.
    And if the USTR decides not to bring action, they must 
notify Congress within 30 days, so we have transparency in 
regard to enforcement. There are funds that are made available, 
$88 million during the next 4 years for environmental 
monitoring enforcement, and there are three new environmental 
attaches in our embassies in Mexico City.
    I think this agreement really does provide a major template 
for including environment in trade agreements. If you go back 
just a few years, just a few years ago, it would have been 
revolutionary to include environment provisions in a trade 
agreement. We now are not only including it; we are providing 
for enforcement.
    So I think this agreement is good for many reasons, but I 
also think it is a major step forward in using trade to help 
provide a level playing field for environmental rules, and I 
strongly support the agreement.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Sullivan, congratulations again on the Save Our 
Seas Act 2.0.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to express my strong support for this agreement. It 
is good to see so many of my colleagues on both sides of the 
aisle who are supportive.
    There is certainly a strategic aspect to this, which is 
something I have been encouraging this Administration from the 
President on down to his team in terms of trade, where we need 
to work more closely with our allies, so we address some of the 
really big challenges we have with China. I think bringing our 
North American trading partners together with this agreement is 
going to help that broader strategic aspects.
    I want to echo some of what Senator Cardin just mentioned, 
and I appreciate your comments, Mr. Chairman, and the help you 
provided me and Senator Whitehouse on passing the Save Our Seas 
2.0 Act. That is the bill that passed last week in the Senate. 
That is the most comprehensive ocean debris, ocean pollution 
legislation ever to pass the Congress.
    Didn't get a lot of stories on it, but that is true, we 
checked with CRS last week, and they said, absolutely, you can 
say that. So we are doing a lot in a bipartisan way on cleaning 
up our oceans.
    And importantly, as Senator Cardin just mentioned, there is 
a whole article on marine debris in this trade agreement. First 
time ever that any trade agreement that we have ever done. I 
think, that is important for the environment, for the oceans, 
and importantly, as he indicated, fisheries.
    I want to talk just briefly, Mr. Chairman, on the fisheries 
chapter. You know I like to talk, and I know my colleagues hear 
from me a lot, but my State, the great State of Alaska, is the 
superpower of seafood. Almost 60 percent, actually over 60 
percent of all the seafood harvested in America commercially, 
sport fishing, subsistence, over 60 percent, six-zero, comes 
from the shores of Alaska, and we export billions, billions of 
dollars in seafood around the world to markets all over.
    But here is the thing: prior to this agreement, there had 
never been a chapter on opening markets overseas to seafood 
exports from America. So in 2016, as we were debating the trade 
promotion authority, I recognized that we looked like we were 
going to have 60 votes in the Senate, so I withheld my vote 
until I got a commitment from the then-Obama administration and 
some other members, Democrats and Republicans, that TPA, Trade 
Promotion Authority, that we passed in 2016, would have as a 
principal negotiating objective for the USTR, fisheries. That 
was agreed to by everybody. It was in TPA.
    If you look at this agreement, Mr. Chairman, you have 
Article 24.17, Marine Wild Capture Fisheries; Article 24.18, 
Sustainable Fisheries Management; Article 24.19, Conservation 
of Marine Species; Article 24.20, Fisheries Subsidies. 
Countries all around the world over-subsidize their fleets; 
government subsidies, the Koreans, other Asian countries do 
this all the time to the disadvantage of my fishermen, so now 
we are going to be able to go after illegal subsidies for 
foreign fleets that are unfairly trading.
    Article 24.21, Illegal, Unreported, and Unregulated 
Fishing, IUU Fishing, is now going to be illegal. Article 
24.22, Conservation and Trade with Regard to Fisheries. There 
is a lot in this agreement on an industry that supports tens of 
thousands of Alaskans and coastal communities.
    This is historic. I am proud to say the TPA Bill in 2016 is 
what made it happen, and my team and I wrote that provision, a 
bipartisan provision. For a lot of the reasons Senator Cardin 
just mentioned, environment, cleaning up the oceans, fisheries 
for the first time, I think this is a very important agreement, 
and I am going to strongly support it. It is good to see so 
many of my colleagues, Democrats and Republicans, supporting it 
as well.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Mr. Chairman, for me, this was a very difficult call. I 
think the USMCA improves the labor standards and labor 
enforcement, but I am disturbed both about the process and the 
substance on the environment. There are a lot of environmental 
elements to consider in this, and yet we didn't hold a hearing 
on it. We didn't even hold a conversation among ourselves 
before taking this vote.
    I think it really violates the responsibility of you, Mr. 
Chairman, to make sure this Committee has a chance to consider 
important environmental issues before voting on an 
environmental piece of legislation that has implications, 
perhaps for a generation, perhaps for other trade treaties that 
are pursued.
    On the environmental side, every major environmental 
organization is in opposition to this treaty, and they have a 
list of reasons why. We should have heard from them and duly 
considered their points of view.
    I did look at the fact that we now have seven multilateral 
environmental agreements that are enforceable under this 
treaty: wildlife trafficking, ozone depletion, ship bilge 
water, waterfowl wetlands, Antarctic whaling, tuna, OK. All 
well and good.
    But where is the enforceability on air and water pollution 
that drives manufacturing to Mexico, so they can pollute, 
produce items at low cost, and undermine manufacturing in the 
United States of America?
    There is a piece of a process embodied in here that was not 
in former agreements. It is untested and unclear if it will be 
able to have any impact. I think we should have heard experts 
weigh in on both the strengths and weaknesses of that process 
as we consider that.
    Embodied in this particular agreement is special treatment 
for fossil fuel companies. I completely applaud and agree with 
my colleague, Senator Whitehouse, who says we are in big 
trouble on carbon pollution, and we should have weighed and 
considered why we are giving special treatment to fossil fuel 
companies in this agreement.
    In fact, we are eliminating a tax that is in place now on 
tar sand oil, some of the dirtiest oil to be found anywhere on 
the planet. We maintain the villainous ISDS system, 
specifically for the oil and gas companies only. If it is such 
a terrible system, and a corrupt system in which those who are 
plaintiffs one day or defense lawyers or advocates one day, can 
be judges the next, why is it a good system to maintain for the 
fossil fuel companies?
    And while some have applauded the regulatory provisions in 
here, those regulatory systems may also provide many 
opportunities for corporations to obstruct new regulations that 
protect our environment. We should have heard about that issue, 
well debated before this Committee.
    So I am very disappointed in the conduct of this Committee 
and the responsibilities we have to do due deliberation as a 
Committee on environmental issues on a major piece of 
environmental legislation. I did support moving this to the 
floor. I think my vote is primarily one on the basis of the 
labor provisions.
    But I am also aware that no one thinks this agreement will 
return a single manufacturing job to my home State of Oregon 
that has moved to Mexico because of the low labor standards, 
and the particularly low environmental standards. So the 
process of exporting pollution is one that we may well see 
continue, and that process, again, is one that should have been 
duly debated in this Committee.
    As I said, it was a difficult vote for me. I think we have 
to do far better in our international agreements, and bring in 
the biggest crisis facing humankind.
    We have the impact of carbon pollution affecting everything 
in my home State. The duration of the snowpack that provides 
irrigation water to my farmers and ranchers; my farmers and 
ranchers care a lot about water as all farmers and ranchers do 
across this country, and it is being profoundly impacted by 
this pollution.
    Why are we giving special treatment to fossil fuel 
companies in this agreement? In my home State, the forest fires 
are much worse because of those changes. Our off-sea ecosystem 
for our ocean and our fisheries are being very much affected by 
the heat and the acidity in the ocean waters off my coast.
    These are big factors. Let us not repeat this mistake of 
having major environmental legislation go through here with no 
hearings, no consideration of experts being brought to bear.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Merkley.
    I point out that the U.S.-Mexico-Canada Agreement was 
referred to multiple committees in the Senate, the Finance 
Committee; the Health, Education, Labor, and Pensions 
Committee; the Environment and Public Works Committee; the 
Appropriations Committee; the Foreign Relations Committee; the 
Commerce Committee; as well as the Budget Committee.
    The agreement as passed by the Senate by the House is not 
amendable. The agreement as referred to this Committee for 
approval related to Section 815 and 821 is not amendable, and 
it is the opinion of the Chair that any additional hearings or 
debate would be completely dilatory and unnecessary.
    With that, I ask unanimous consent that the staff have 
authority to make technical and conforming changes to the 
matter approved today.
    Senator Carper.
    Senator Carper. Before we close, I just want to say to our 
colleague Jeff Merkley, thank you, I know this was not an easy 
vote for you. Frankly, it was not an easy vote for some of our 
colleagues. Thank you for what you just said.
    I think, Mr. Chairman, his point about on some of the other 
committees I serve, we actually did have a hearing to consider 
the impact of this treaty on--for example, in the Finance 
Committee, our jurisdiction. I think that would have been a 
good idea, and one that, I think, let's just keep that in mind 
as we go forward.
    Senator Barrasso. I would point out that the Finance 
Committee, was, in my understanding, was the committee that was 
supposed to have the entire agreement referred to them, so 
there would have been time and appropriate nature to have that 
hearing. But the Finance Committee voted on this last week, 
within a day or so of it arriving from the House.
    This Committee was informed kind of at the last moment that 
we would be asked to review certain parts. I think many members 
of the Senate on both sides of the aisle were surprised at the 
number of referrals made by the Parliamentarian.
    So in terms of moving this ahead, realizing that amendments 
are not in order, and it is an up or down vote, it was the 
opinion of the Chair that there was no reason at this point to 
hold a hearing.
    And with that, our business meeting is concluded.
    [Whereupon, at 10:39 a.m., the business meeting was 
concluded.]
    An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Mr. Chairman, thank you for scheduling this consideration 
of USMCA so quickly. Oklahoma truckers, manufacturers and 
farmers have been waiting a long time for us to fix the 
outdated NAFTA agreement, but help is now on the way.
    Back in 1994, I opposed NAFTA because it put American 
truckers at a disadvantage by allowing Mexican trucking 
companies to skirt domestic hours of service laws. Thankfully, 
President Trump recognized these concerns, and successfully 
negotiated a new, fair agreement: the USMCA.
    USMCA will now allow for a much more level playing field 
for American companies. For example, by preserving and 
enhancing U.S. duty free access to Mexican and Canadian 
markets.
    It's also good for Oklahoma. A total of $2 billion in 
economic revenue and 15,000 jobs are supported by agricultural 
exports to Canada and Mexico--USMCA will ensure this continues 
to grow.
    Nationally, USMCA is expected to add $68 billion to our 
economy and more than 175,000 jobs.
    Most importantly to this Committee, I am very pleased that 
there are no radical, job killing climate mandates within the 
agreement that would keep American businesses from competing 
with other countries, or liberal policy riders that would force 
us to adhere to globalist climate agreements, like the Paris 
Climate Agreement.
    The USMCA--both what is in it and what isn't in it--is 
another massive accomplishment for President Trump and the 
Nation. I am proud to support USMCA--there is no question it 
will provide certainty for the future and increase economic 
growth for American businesses across every sector.

    [The text of H.R. 5430, the United States-Mexico-Canada 
Agreement Implementation Act, follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Additional material submitted for the record follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                 <all>
</pre></body></html>
